U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

February 18, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Jiahao Kuang, et al. v. Department of Defense, et al., No. 19-1194
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 30,
2020, and placed on the docket on April 2, 2020. The government’s response is now due, after
five extensions, on February 19, 2021. We respectfully request, under Rule 30.4 of the Rules of
this Court, a further extension of time to and including March 19, 2021, within which to file a
response.
This extension is necessary in light of recent developments that bear on the petition for a
writ of certiorari. As the government previously informed the Court when requesting extensions
of time to respond to the petition, the Department of Defense has been undertaking a review of
whether to retain the policy that is the subject of the petition. The Department recently completed
that review, and it rescinded the challenged policy on February 3, 2021. The government now
respectfully requests additional time to prepare its response to the petition for a writ of certiorari
in light of these changed circumstances.
Counsel for petitioners consents to this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

19-1194
KUANG, JIAHAO, ET AL.
DEPT. OF DEFENSE, ET AL.

IAN HEATH GERSHENGORN
JENNER & BLOCK
1099 NEW YORK AVE., NW
SUITE 900
WASHINGTON, DC 20001
202-639-6869
IGERSHENGORN@JENNER.COM
MELISSA ARBUS SHERRY
LATHAM & WATKINS LLP
555 11TH STREET, NW
SUITE 1000
WASHINGTON, DC 20004
202-637-2200
MELISSA.SHERRY@LW.COM

